BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Kentucky, Alabama, Arizona,
Arkansas, Georgia, Idaho, Kansas, Louisiana,
Mississippi, Montana, Nebraska, Ohio, Oklahoma,
South Carolina, South Dakota, Tennessee, Texas,
Utah, and West Virginia as Amici Curiae Supporting
Petitioners in 20-1375, Kristina Box, Commissioner,
Indiana State Department of Health, et al. v. Planned
Parenthood of Indiana and Kentucky, Inc., was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day and e-mail service to the
following parties listed below, this 3rd day of May
2021:
Thomas M. Fisher
Office of the Indiana Attorney General
IGC-South, Fifth Floor
302 W. Washington
Indianapolis, IN 46204
(317) 232-6255
tom.fisher@atg.in.gov
Counsel for Petitioners
Jennifer Ruth Sandman
Planned Parenthood Federation of America
123 William Street
9th Floor
New York, NY 10038
(212) 261-4584
jennifer.sandman@ppfa.org
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

Governor's Hill Drive
I 8790
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Daniel Cameron
Attorney General of Kentucky
S. Chad Meredith
Solicitor General
Counsel of Record
Barry L. Dunn
Deputy Attorney General
Matthew F. Kuhn
Principal Deputy Solicitor General
Brett R. Nolan
Deputy Solicitor General, Civil Appeals
Office of the Kentucky Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 3, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{°h~~ 3,

difk-l'J.

Notary Public

c)o cJ I

~

[seal]

JOHN D. GALLAGHER
Notary Publlo, State of Ohio
My .;ommission Expires
.,,, 1 1, 2•','3

